LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 19, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

RICHARD JORDAN
CORRECTIONS

AND

RICKY CHASE

V.

VIRGINIA DEPARTMENT

OF

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioners, on August 19, 2019, I caused service to be made pursuant
to Rule 29 on the following counsel for the Respondent:
RESPONDENT:
Margaret Hoehl O’Shea
Office of the Attorney General
202 N. 9th Street
Richmond VA 23219
804-225-2206
moshea@oag.state.va.us
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

